                                       Office of the Inspector General

March 3, 1999

Kenneth S. Apfel
Commissioner of Social Security

Acting Inspector General


Management Advisory Report: Welfare Reform Childhood Redetermination Accuracy


The attached final report presents the results of our review, “Welfare Reform Childhood Redetermination
Accuracy” (A-01-98-62012). Our objective was to determine how the Social Security Administration
intends to investigate and correct accuracy problems for cessations and continuances of children
redetermined under Welfare Reform by State Disability Determination Service offices.

You may wish to comment on any further action taken or contemplated on our recommendations. If you
choose to offer comments, please provide them within the next 60 days. If you wish to discuss the final
report, please call me or have your staff contact Daniel R. Devlin, Acting Assistant Inspector General for
Audit, at (410) 965-9700.




                                                      James G. Huse, Jr.

Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



      WELFARE REFORM
 CHILDHOOD REDETERMINATION
         ACCURACY

    March 1999   A-01-98-62012




  MANAGEMENT
ADVISORY REPORT
                                Office of the Inspector General


Kenneth S. Apfel
Commissioner of Social Security

Inspector General


Management Advisory Report: Welfare Reform Childhood Redetermination
Accuracy


Our objective was to determine how the Social Security Administration (SSA) intends to
investigate and correct accuracy problems for cessations and continuances of children
redetermined under Welfare Reform by State Disability Determination Service (DDS)
offices.

In December 1997,1 SSA released a report outlining findings on the Agency’s
implementation of new childhood disability provisions in the Personal Responsibility
and Work Opportunity Reconciliation Act of 1996, referred to as the Welfare Reform
law. Under this law, individuals under age 18 are considered disabled if they have a
medically determinable physical or mental impairment which results in marked and
severe functional limitations and if their impairment meets the statutory duration
requirement. One of the issues cited in SSA’s report involved assessment accuracy
problems with childhood cases at DDS offices. In the report, SSA stated that steps
would be taken to correct these problems, including: (1) providing SSA and DDS staff
with updated training; (2) reworking a number of the cases that were ceased under the
new disability criteria; and (3) revising certain disability criteria. After SSA’s report was
issued, a steering committee was established to implement these steps.

We estimate that if the cases identified as inaccurately ceased were overturned as a
result of SSA’s rework, both Supplemental Security Income (SSI) and the States may
incur additional SSI benefit costs of between $7.40 million to $24.02 million over a
1-year period. However, we estimate that Federal and State SSI funds at risk could be
reduced between $9.47 million to $15.33 million over a 1-year period if SSA were to
identify and correct inaccurately continued SSI childhood cases. SSA is currently
reviewing the inaccurate cessations, but the Agency has not yet taken actions to

1
 Review of SSA’s Implementation of New SSI Childhood Disability Legislation, Social Security
Administration, December 17, 1997.
Page 2 - Kenneth S. Apfel

correct the inaccurate continuances nor provided a plan showing how and when this
will be done. These cases could be corrected by scheduling inaccurately continued
cases for a continuing disability review (CDR) earlier than required under current law.
By correcting problems with both cessation and continuance cases, SSA can offset the
majority of Federal and State costs incurred by the process, while also ensuring that all
children who should continue to receive SSI benefits do so and those whose benefits
should be ceased are stopped. SSA officials have indicated that they plan to address
inaccurate continuances, but they have not yet provided an action plan. We
recommend that SSA ensure that erroneous childhood continuances are reviewed.
Specifically, we believe SSA should identify questionable continuation cases and
update the profile of these questionable continuation cases to expedite the next
scheduled full medical CDR.

In response to our draft report, SSA agreed with the overall conclusion. SSA’s
comments are found at Appendix C in their entirety. Specifically, SSA agreed that
CDRs on childhood continuances made by States with low continuance accuracy are
important. The Agency had planned to release the relevant cases for CDRs in early
Fiscal Year (FY) 1999. SSA did have comments related to our calculations, pointing
out that Office of the Inspector General (OIG) should: (1) recognize statistical
variability associated with the quality measures on which we relied for our funds at risk
estimates; and (2) adjust the cost and funds at risk calculations to reflect the potential
impact of hearings and appeals. In our response, we noted that we recognized
statistical variability and presented the most conservative estimates. In terms of
hearings and appeals, we modified both our cost and funds at risk estimates in the
report to show the potential impact of this process.

BACKGROUND

In August 1996, Congress passed the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 (Public Law 104-193), also called the Welfare Reform law.
                                                 2
This law mandates CDRs and/or redeterminations be performed for specific SSI cases,
including:

    •   redeterminations for children with a disability based on the comparable severity
        standard and/or maladaptive behavior;

    •   redeterminations for all SSI recipients attaining age 18; and




2
 The purpose of CDRs and redeterminations is to determine whether a disabled beneficiary is still
medically eligible to receive benefits.
Page 3 - Kenneth S. Apfel

    •   CDRs at least once every 3 years for all SSI recipients under age 18 if not
        permanently disabled.

SSA originally determined that of the 1 million disabled children in the SSI program,
approximately 288,000 children, with a disability based on the comparable severity
standard and/or maladaptive behavior, needed to be redetermined under the Welfare
Reform law. This number was later reduced to approximately 260,000 after all
screening processes3 were completed. Under this law, individuals under age 18 are
not considered disabled if they have an impairment of comparable severity to that of an
adult. Rather, individuals under age 18 are considered disabled if their impairment
meets the statutory duration requirement and if they have a medically determinable
physical or mental impairment which results in marked and severe functional
limitations. The law also eliminated the use of individualized functional assessments
for children and eliminated reference to maladaptive behavior in the personal domain in
specified listings. These redeterminations were performed by State DDS offices which
are SSA’s primary contractors responsible for performing initial disability
determinations for SSI and the Disability Insurance programs. By January 31, 1998,
SSA had completed approximately 243,100 redeterminations at the initial level and
decided to cease benefits to about 146,700 children (60 percent) and continue benefits
to 96,400 children (40 percent).

The Commissioner’s Report on Welfare Reform Implementation

On December 17, 1997, SSA’s Commissioner released a 65-page report as part of his
“top-to-bottom review” of the Agency’s implementation of the Welfare Reform law as it
affected the SSI childhood disability program. The main goal of the report was to
determine whether disability provisions of the law were being fairly and correctly
applied. The report identified three specific areas of concern: (1) cessations of
children classified in SSA’s records as having mental retardation; (2) the quality of case
processing; and (3) appeals and requests for benefit continuation during appeal.

In our review, we focused on how SSA addressed the quality of case processing as it
pertains to redetermination processing at the DDS level. Quality assurance (QA)
reviews conducted by the Office of Quality Assurance and Performance Assessment




3
  An initial review of the approximately 288,000 children scheduled to be redetermined identified
approximately 28,000 children that were not the intended target of Welfare Reform.
Page 4 - Kenneth S. Apfel
                                                                 4
(OQA) indicated lower than expected case performance accuracy rates for both
cessations and continuances at the DDS level.5 The QA reviews examined the support
for a sample of determinations, including medical evidence and information from
parents and schools, where appropriate.

The Commissioner’s report identified the following performance accuracy rates for
Welfare Reform reviews achieved by DDS offices during June through October 1997:

    •   the performance accuracy rates for cessations averaged 93.4 percent
        (i.e., 6.6 percent of the childhood cessations sampled by OQA were returned to
        DDS for further development); and

    •   the performance accuracy rates for continuances averaged 91.5 percent
        (i.e., 8.5 percent of the childhood continuances sampled by OQA were returned
        to DDS for further development).

As a result of this review, the Commissioner called for actions to correct the cessation
accuracy problems. Some of these steps included: (1) providing additional training to
DDS staff; (2) reworking a number of cessation cases with accuracy problems; and
(3) developing a Social Security Ruling on the evaluation of speech disorders in
combination with cognitive limitations. With regard to continuance errors, SSA’s report
stated that for those DDS offices in which continuance accuracy is below 90.6 percent,
the Agency will give childhood disability cases priority reviews.

SCOPE AND METHODOLOGY

To accomplish our objectives, we:

    •   examined the Commissioner’s report on Welfare Reform;




4
  “Performance accuracy refers to the percentage of cases that do not have to be returned to State
agencies for further development or correction of decisions based on evidence in the files and as such
represents the reliability of State agency adjudication. The definition of performance accuracy includes
the measurement of factors that have a potential for affecting a decision, as well as the correctness of
the decision. For example, if a particular item of medical evidence should have been in the file but was
not included, even though its inclusion does not change the results in the case, that is a performance
error. Performance accuracy, therefore, is a higher standard than decisional accuracy. As a result, the
percentage of correct decisions is significantly higher than what is reflected in the error rate established
by SSA’s quality assurance system.” Title 20 of the Code of Federal Regulations, Part 416.1043(a).
5
  Cessations refer to disability cases where a DDS office reviewed the medical eligibility of a child and
decided that the child was no longer qualified to receive SSI benefits. Continuances refer to disability
cases where a DDS office decided that the child was still medically eligible to continue receiving SSI
benefits.
Page 5 - Kenneth S. Apfel

    •   reviewed the most current OQA reports on State DDS redetermination
        performance accuracy rates;

    •   interviewed SSA personnel on the Steering Committee to Implement the
        Commissioner’s Initiatives on SSI Childhood Cases (the Steering Committee)
        and the Office of Disability (OD);

    •   interviewed OQA personnel to obtain a more thorough understanding of their
        statistical collection methods;

    •   estimated costs and funds at risk related to correcting improper cessations and
        continuances using QA data from June 1997 through January 1998, as well as
        other data provided by OQA throughout our review; and

    •   reviewed pertinent laws and regulations related to CDRs and/or
        redeterminations for children.

Our review used the same OQA data sources used in the Commissioner’s report. We
did not verify either the performance accuracy rates or decisional accuracy rates
provided by OQA. We performed our review in Baltimore, Maryland, and
Boston, Massachusetts, between February and July 1998.

RESULTS OF REVIEW

Corrective Actions Taken

In December 1997, the Commissioner of SSA created two Steering Committees,6 one
under the direction of OD, to oversee the implementation of corrective actions related
to cases that may have been improperly ceased under reviews mandated by the
Welfare Reform law. This Steering Committee has overseen a number of steps to
investigate and correct accuracy problems at DDS offices. These steps relate to the
screening and reworking of cessation cases. Screening involves a review of the case
file to determine whether all the necessary documentation is present and that the
determination was correct. A case will be reworked if deficiencies are found in a
determination or if it is a mental retardation case with a valid IQ score of 75 or below.
Some of the steps taken by SSA to correct cessation accuracy problems include:




6
  The Steering Committee is chaired by the Director of the Division of Field Disability Operations and
consists of officials representing OD, OQA, Central Operations, regional offices, DDS offices, and the
Office of Hearings and Appeals. A second executive-level Steering Committee chaired by the Principal
Deputy Commissioner for SSA and made up of senior executives from the same components listed
above approves policy changes originating from the first Steering Committee.
Page 6 - Kenneth S. Apfel

    •   Quality Review Plan: OD and OQA issued a Quality Review Plan on
        February 18, 1998. The plan explained the procedures being put in place to
        monitor the quality of DDS screening and reworking of cessations. This
        monitoring is to be performed by OQA, as well as special teams consisting of
        both regional and field staff.

    •   Training: Approximately 15,000 SSA and DDS employees were trained in
        February and early March 1998, on both the contents of the Quality Review Plan
        and the evaluation of childhood mental impairments. Additional training in
        March 1998 related to cognitive and speech impairments. The Agency has also
        put together a training manual to accompany the mental impairment training.

    •   Identifying Cases: In March 1998, SSA issued a listing of approximately
        38,000 cessation cases to be screened/reworked by DDS offices.7 These
        cessation cases will be selected based upon: (1) type of cessation;
        (2) diagnosis; and/or (3) accuracy problems at DDS. A breakout of the types of
        disabilities involved is provided in Figure 1. Notices to families informing them
        of the rework were also sent out in March 1998. DDS offices began the case
        screening and rework activities in April 1998.

    •   Speech and Language Delay: On March 30, 1998, SSA published a Social
        Security Ruling on Speech and Language Delay. This ruling provides additional
        criteria when DDS offices are screening and reworking cases related to this
        disability. The Agency has also conducted training on this updated criteria for
        both SSA and DDS staff.




7
   On March 18, 1998, SSA identified and selected for rework 21,961 mental retardation denials related
to new applications since August 22, 1996.
Page 7 - Kenneth S. Apfel

        Figure 1: Redetermination Cases to Be Screened and/or Reworked
                  (Provided to DDS Offices in March 1998)

           Speech & Language             2,776

                         Other                   4,201
Case     Unknown Diagnosis                       4,449
Diagnosis Learning Disorder
                                                    5,062
                   Maladaptive
                                                            6,271
            Mental Retardation                                                    14,936

                                 0         5000                     10000      15000
                                          Number of Cases
            Note: The learning disorder cases noted above include borderline
            intellectual functioning.



Continuance Accuracy Problems

Steering Committee officials noted that the Agency’s current priority is to reinstate the
benefits for those children whose benefits were improperly ceased. Although members
of the Steering Committee agree that SSA also needs to address performance
accuracy problems related to continuance redeterminations, at the time of our meetings
the Agency had not yet outlined its action plan for addressing these cases other than to
say that continuance reviews are expected to begin in FY 1999. We asked SSA
officials about the possibility of screening and reworking the erroneous continuances in
the same way the Agency is currently reworking the erroneous cessations. These
officials told us that SSA had already made a decision to continue these childhood
cases and could not reopen these cases in the same way as the cessation cases. As a
result, we discussed the two available options for correcting these continuance cases:
(1) reviewing cases for an “error on the face of the record;” or (2) accelerating the
timing of the next CDR.

One way to correct a case would be to review it for an “error on the face of the record.”
This occurs when substantial evidence demonstrates that a prior decision or
determination was made in error. If clear and compelling evidence exists that a prior
decision was in error, or required material evidence of the severity of the claimant’s
impairment was missing, a decision maker can terminate the individual’s benefits.
However, SSA officials noted that this type of review was not a viable option for
correcting erroneous continuances since historically few case decisions have been
changed in this manner.
Page 8 - Kenneth S. Apfel

A second option is an accelerated CDR schedule. The Welfare Reform law requires
that CDRs be performed at least once every 3 years for all SSI recipients under age 18,
if not permanently disabled. If CDRs were performed even sooner on cases identified
by SSA as likely to be in error, they could be reworked by the newly trained DDS
personnel who are more likely to consistently apply the Welfare Reform disability
criteria. The continuance cases could be selected using criteria similar to that used to
identify improper cessation cases. Once identified, these cases could be marked with
a special element when profiling cases for CDR selection so that they receive a full
                                            8
medical CDR on an accelerated schedule. This accelerated schedule could potentially
result in CDRs being conducted in as few as 6 months, instead of the current schedule
of 3 years. In addition, although SSA is currently attempting to modify the CDR
mailers9 so that they can be used for childhood cases, the cases identified for an
accelerated CDR should receive a full medical review since past DDS errors are not
likely to be detected through the CDR mailer process.

An SSA official in OD noted that the Agency has already committed itself to conducting
approximately 315,000 childhood CDRs in FY 1999. This official noted that SSA is
currently in the process of adjusting the mix of cases to be reviewed so that States with
high error rates in various childhood areas, including continuance errors from the
Welfare Reform workload, receive more attention. We asked for more information on
this CDR plan, but we were told that the plan was still in draft and not available for our
review.

One potential limitation of an accelerated CDR, however, is the Medical Improvement
Review Standard (MIRS). This standard applies to all CDRs whether on an
accelerated schedule or not. According to an OQA official, under MIRS, only an
improvement in the individual’s condition would allow an error to be remedied since
past improper decisions become part of the permanent record. Because of this
standard, all past decisions, proper or not, become affixed to the individual’s permanent
record and cannot be used as a reason for cessation. When we discussed this matter
with SSA officials they noted that MIRS is not expected to be a hurdle for childhood
disability cases since children often show medical improvement as they mature.
Agency officials noted that “As they age, many children become better able to adapt to
their impairments . . . Likewise, many children improve because of medical treatment
and therapy, and because of support and interventions at their schools and elsewhere.”

It is also worth noting that some of the continuance cases with accuracy problems have
been or will be corrected sooner than other cases. For example, performance errors
identified during the QA sampling were corrected by DDS. In addition, some of these

8
  This new profiling will also need to assume that identified cases are “non-permanent” disabilities and,
therefore, require a CDR, since the existence of the disability itself is in question.
9
  A CDR mailer is a questionnaire pertaining to the beneficiary’s current condition, medical care, work
activity and training.
Page 9 - Kenneth S. Apfel

cases are likely to be resolved in less than 3 years if the recipient is nearing age 18.
When attaining age 18, all childhood beneficiaries are redetermined using adult
eligibility criteria as required under the Welfare Reform law.

Cost and Savings of Performance Accuracy Issues

Using recent performance accuracy and decisional accuracy10 rates provided by OQA,
we estimated the potential increase in SSI costs to SSA and the States if all improper
childhood cessations were corrected. We also estimated the reduction in SSA and
State funds at risk if all improper childhood continuances were corrected.11 We
attempted to adjust both our costs and funds at risk to reflect the impact of recipients
appealing DDS determinations. For example, our estimated costs related to reworked
cessations may be less since a number of these cases are already being appealed and
some of the reinstatement costs would most likely be incurred whether or not a rework
was performed. In addition, our estimates of a reduction in Agency and State funds at
risk related to proposed CDRs on erroneous childhood continuances would be
impacted by successful appeals.

Although SSA was unable to provide us with information related to a process that is still
ongoing, we referred to SSA’s “SSI Welfare Reform Childhood Status Report Through
May 30, 1998,” and determined that approximately 71 percent of the ceased decisions
have been appealed. As far as the anticipated success of these appeals, SSA has
already reported to the Congress that approximately 40 percent of these cessations are
expected to be overturned on appeal. In order to provide a range of estimates for both
cessation and continuance corrections, we applied these appeal and overturn rates to
both the estimated costs related to correcting erroneous cessations and the estimated
funds at risk related to correcting erroneous continuances.

We also adjusted our estimates to show the results of Agency corrections aimed at only
those DDS offices that failed to meet the minimum performance accuracy standards as
well as the potential results of an Agency attempt to correct childhood redetermination
errors at all DDS offices. Although at this time the Agency has only committed to
reworking cessation cases at DDS offices with the worst performance accuracy (below
90.6 percent), we wanted to show the full effect of redetermination errors in both
cessation and continuance cases.
By reinstating improperly ceased benefits, we estimate SSA and States are likely to
incur $7.40 million to $24.02 million in additional benefit payments over a 12-month

10
  Decisional accuracy is a subset of performance accuracy. It represents the percentage of cases
where the decision on the case was reversed after being reworked by DDS staff.

11
   State costs are represented through supplemental payments to SSI recipients within a particular
State. Presently, there are 28 States that have an agreement with SSA to make supplementary
payments to individuals who are receiving Federal SSI benefits. The States then pay SSA an amount
equal to the expenditure.
Page 10 - Kenneth S. Apfel

period (see Appendix A). 12 We also estimate that by expanding the current rework to
improperly continued beneficiaries, SSA and State funds at risk could be reduced
between $9.47 million to $15.33 million in benefit payments over a 12-month period
(see Appendix B).

CONCLUSION AND RECOMMENDATION

The Commissioner should be commended for the corrective actions being taken in the
interest of ensuring that every child receives a fair assessment of eligibility for benefits.
The Agency has developed a plan that should give children removed from the SSI roles
an objective reassessment of their eligibility. However, SSA should ensure that it also
investigates and corrects cases related to children whose SSI benefits were continued.
In doing so, SSA can offset most of the increased costs to the SSI program due to
identified performance accuracy problems, while also ensuring that all children who
should continue to receive benefits do so and those whose benefits should be ceased
are stopped. The States, which have their State supplement program administered by
SSA, will also benefit by correcting these continuations.

We recommend that SSA ensure that erroneous childhood continuances are reviewed.
Specifically, we believe SSA should identify questionable continuation cases and
update the profile of these cases to expedite the next scheduled full medical CDR

AGENCY COMMENTS AND OIG RESPONSE

In response to our draft report, SSA agreed with the overall conclusion. Specifically,
SSA agreed that CDRs on childhood continuances made by States with low
continuance accuracy are important. The Agency had planned to release the relevant
cases for CDRs in early FY 1999.

SSA took strong exception to our calculation of reduced SSA and State funds at risk if
erroneous continuances are corrected, stating that there is statistical variability
associated with the quality measures on which OIG relied for the provided estimates.
In fact, we took this variability into consideration in the calculations and, rather than
presenting a range, we chose to be conservative and only use the lowest figure in our
calculations. As a result, the OIG report was more likely to underestimate potential
funds at risk in the calculations rather than overstate potential funds at risk.

SSA’s exception to our calculations includes the impact of potential appeals. SSA
states that OIG did not adjust the calculations to reflect this information. OIG asked
SSA for information related to this very issue, but we were told such information was

12
  The lower estimate factors in appeal rates for rework performed only at DDS offices with performance
accuracy problems. The higher estimate also factors in appeals, but assumes rework performed
throughout the nation for all DDS offices falling below 100 percent performance accuracy.
Page 11 - Kenneth S. Apfel

not available due to the ongoing process. As a result, we could only note information
already presented by SSA in its internal reports and testimony before the Congress.
Although both OIG and SSA agree that these figures are difficult to determine, in an
effort to be more conservative in our estimates, we have adjusted the tables in
Appendices A and B to show the possible impact of appeals. The current report now
shows a range of estimates for SSA and State costs and funds at risk.

We again commend SSA for its top-to-bottom review of the childhood cases, its quick
implementation of steps to correct childhood cessation errors, and its stated intent to
correct childhood continuance errors. We also fully endorse SSA’s effort to takes steps
above and beyond normal actions to ensure that every child receives a fair assessment
of his or her eligibility for benefits.




                                           James G. Huse, Jr.
APPENDICES
                                                                                                       APPENDIX A
                 ESTIMATED SSA AND STATE COSTS RELATED TO
                  QUESTIONABLE SSI CHILDHOOD CESSATIONS
                                                                                             LOWER              UPPER
                   JUN 97 - JAN 98       1996      JUN 97 - JAN 98       ESTIMATED         ESTIMATED          ESTIMATED
                 REDETERMINATION AVERAGE            NUMBER OF            NUMBER OF          AVERAGE            AVERAGE
                    CESSATIONS         MONTHLY      CESSATIONS            PERSONS           MONTHLY            MONTHLY
                  (PERFORMANCE)           SSI      GRANTED PER         INCORRECTLY         COSTS PER          COSTS PER
         STATE     ERROR RATE 1        BENEFIT 2     STATE 3              CEASED 4          STATE 5            STATE 5
Alabama                          4.6% $ 428.59                 4,976             229.9                          $ 98,529.07
Alaska                           6.9%      422.29                 89                5.7                             2,424.16
Arizona                          4.3%      422.49              1,266              32.8                            13,853.19
Arkansas                         6.3%      417.65              4,307             102.5                            42,811.88
California                      11.1%      504.64              5,368             294.2         148,448.13        148,448.13
Colorado                         4.9%      407.15                988                9.7                             3,942.19
Connecticut                      2.1%      431.01                683              13.9                              6,005.35
Delaware                         2.9%      415.38                243                4.4                             1,816.87
Dist. Columbia                  18.6%      428.35                213              12.1           5,191.47           5,191.47
Florida                          6.0%      422.95              8,314             228.6                            96,701.17
Georgia                          8.7%      416.30              3,243             156.6                            65,207.94
Hawaii                           6.2%      413.00                 30                0.0                                    -
Idaho                           11.9%      395.26                599              60.9          24,054.89         24,054.89
Illinois                         3.7%      436.21              8,751             351.8                           153,454.40
Indiana                          6.9%      414.05              3,019             147.9                            61,250.83
Iowa                             5.4%      391.84              1,271              31.0                            12,151.90
Kansas                           7.2%      397.79              1,818              25.8                            10,269.19
Kentucky                         8.7%      423.52              3,161             166.3                            70,418.08
Louisiana                        0.8%      434.91              8,698             103.5                            45,015.88
Maine                            3.1%      404.47                295                9.8                             3,973.31
Maryland                        11.5%      416.06              1,620             102.1          42,463.08         42,463.08
Massachusetts                    3.1%      461.77              2,244              51.8                            23,936.49
Michigan                         6.0%      432.11              6,342             238.5                           103,040.60
Minnesota                        1.6%      418.44              1,312              21.5                              9,003.49
Mississippi                     15.8%      426.84              4,589             376.8         160,814.92        160,814.92
Missouri                         3.1%      423.25              4,330             134.7                            56,996.11
Montana                          2.4%      418.56                368                7.2                             3,034.39
Nebraska                         3.3%      401.79                614              12.5                              5,007.99
Nevada                           2.0%      399.44                230                4.1                             1,626.12
New Hampshire                    1.2%      389.22                171                2.0                               792.02
New Jersey                       9.4%      440.82              2,373              47.7                            21,025.92
New Mexico                       3.2%      428.58                837              12.2                              5,237.33
New York                         7.8%      453.28             15,578             824.1                           373,537.26
North Carolina                  10.7%      405.72              4,946             210.7          85,485.04         85,485.04
North Dakota                     1.5%      399.34                125                0.0                                    -
Ohio                             9.4%      427.02              8,561             525.6                           224,461.10
Oklahoma                         3.2%      427.28              1,220              42.9                            18,349.11
Oregon                          13.2%      413.44                471              40.0          16,532.60         16,532.60
Pennsylvania                    11.2%      450.12              5,212             436.8         196,596.93        196,596.93
Rhode Island                     8.6%      471.49                559              24.4                            11,517.70
South Carolina                   6.4%      413.36              2,727             159.5                            65,943.11
South Dakota                     3.3%      407.14                243                6.6                             2,700.93
Tennessee                       10.7%      424.54              4,041             352.4         149,597.37        149,597.37
Texas                            5.2%      412.79              9,088             414.4                           171,065.46
Utah                             3.8%      394.75                536              19.8                              7,828.68
Vermont                          1.4%      468.35                195                6.6                             3,114.29
Virginia                         4.5%      409.10              4,182             213.3                            87,253.67
Washington                       9.8%      435.23              1,214              74.2          32,283.36         32,283.36
West Virginia                    4.1%      428.03              1,362              48.2                            20,637.38
Wisconsin                        4.0%      416.09              3,911              68.4                            28,478.24
Wyoming                          5.4%      418.32                178                4.2                             1,749.83
        TOTALS                      --          --           146,711             6,471     $   861,467.79   $ 2,795,630.42
                                                                                             X 12 months    X 12 months
                                                  Total Annual Costs                      $10,337,613.48 $33,547,565.04
                                                  Adjusted for Appeals (less 28%)          $ 7,401,731.25    $24,020,056.57


                                                         A-1
                                         NOTES

1) The numbers in Column 1 were taken from the Social Security Administration’s (SSA)
   “Childhood Redetermination Reports - INFORMATION - SSI Welfare Reform Childhood
   Status Report for the Week Ending January 31, 1998,” in Table 6. They reflect the
   accuracy of the original decisions (performance accuracy). These numbers are used for
   informational purposes only and are not used in the table calculations.

2) The numbers in Column 2 were taken from “Children Receiving SSI – December 1997,”
   prepared by SSA’s Office of Research, Evaluation and Statistics, in Table 2.

3) The numbers in Column 3 were taken from SSA’s “Childhood Redetermination Reports -
   INFORMATION - SSI Welfare Reform Childhood Status Report for the Week Ending
   January 31, 1998,” in Table 1. To calculate the number of cessations granted per State,
   we subtracted the initial redetermination continuances from the initial redetermination
   totals.

4) The numbers in Column 4, estimated number of persons incorrectly ceased was calculated
   using decisional accuracy rates provided by the Office of Quality Assurance and
   Performance Assessment on July 23, 1998. Decisional accuracy rates for erroneous
   cessations were considered statistically reliable for all States with the exception of the
   District of Columbia, Alaska, and Oregon. For each of these 3 States, we compared the
   regional decisional accuracy rate to the State decisional accuracy rate and used the lesser
   rate, which produced the fewest number of persons incorrectly ceased.

5) The numbers in these two columns were calculated by multiplying the estimated number
   of persons incorrectly continued by the average monthly Supplemental Security Income
   benefit per State. The three totals at the bottom of the column represent: (1) the total
   monthly costs; (2) the total annual costs (monthly costs multiplied by 12); and (3) the
   adjusted annual costs assuming an appeals rate of 71 percent and an overturn rate of
   40 percent. The lower cost estimate pertains to only those States with a performance
   accuracy rate below the minimum of 90.6 percent established by SSA. The upper cost
   estimate covers all States.




                                             A-2
                                                                                                  APPENDIX B
             ESTIMATED SSA AND STATE FUNDS AT RISK RELATED TO
                 QUESTIONABLE SSI CHILDHOOD CONTINUANCES

                                                                                          LOWER           UPPER
                    JUN 97 - JAN 98        1996       JUN 97 - JAN 98     ESTIMATED     ESTIMATED      ESTIMATED
                  REDETERMINATION        AVERAGE       NUMBER OF         NUMBER OF       AVERAGE        AVERAGE
                    CONTINUANCE          MONTHLY CONTINUANCES              PERSONS       MONTHLY        MONTHLY
                   (PERFORMANCE)            SSI       GRANTED PER       INCORRECTLY PAYMENTS PER PAYMENTS PER
          STATE     ERROR RATE 1         BENEFIT 2      STATE 3         CONTINUED 4      STATE 5         STATE 5
Alabama                          5.6%     $ 428.59                1,788           33.4                    $ 14,330.16
Alaska                           0.0%         422.29                 99             3.4                       1,442.33
Arizona                          5.3%         422.49              1,344           92.2                       38,952.90
Arkansas                         2.7%         417.65              1,296           57.2                       23,870.20
California                       8.3%         504.64              7,723          329.0                      166,026.46
Colorado                         8.6%         407.15                777           32.3                       13,128.76
Connecticut                      2.3%         431.01                520            0.0                               -
Delaware                         5.6%         415.38                251           10.0                        4,170.42
Dist. Columbia                   7.2%         428.35                391           10.2                        4,371.35
Florida                          5.6%         422.95              5,608          227.1                       96,062.10
Georgia                          0.4%         416.30              1,414           40.4                       16,835.34
Hawaii                           1.0%         413.00                 49             0.0                              -
Idaho                           18.1%         395.26                465           18.3      $ 7,223.18        7,223.18
Illinois                         4.3%         436.21              3,837          106.7                       46,529.91
Indiana                          2.9%         414.05              1,934           41.6                       17,216.61
Iowa                             3.2%         391.84                384             7.4                       2,888.96
Kansas                          11.6%         397.79                589           30.9       12,277.23       12,277.23
Kentucky                         6.7%         423.52              3,942           60.7                       25,710.54
Louisiana                       13.8%         434.91              2,611          174.7       75,968.30       75,968.30
Maine                            0.7%         404.47                208             2.3                         908.60
Maryland                         3.9%         416.06              1,425           22.0                        9,130.44
Massachusetts                    1.0%         461.77              2,171             0.0                              -
Michigan                        15.0%         432.11              6,281          188.4       81,422.49       81,422.49
Minnesota                        2.6%         418.44              1,788           47.7                       19,976.16
Mississippi                      4.8%         426.84              1,308             0.0                              -
Missouri                         0.0%         423.25              1,632             0.0                              -
Montana                          0.0%         418.56                108             0.0                              -
Nebraska                        12.0%         401.79                281           14.7        5,916.12        5,916.12
Nevada                           7.2%         399.44                322           19.3                        7,717.18
New Hampshire                    2.8%         389.22                121             1.3                         508.63
New Jersey                      19.9%         440.82              2,859          421.7      185,894.90      185,894.90
New Mexico                      18.5%         428.58                418           28.0       11,984.90       11,984.90
New York                        18.0%         453.28              9,289         1290.2      584,840.94      584,840.94
North Carolina                   6.8%         405.72              6,262          139.0                       56,401.73
North Dakota                     6.1%         399.34                 57             2.4                         944.64
Ohio                             2.1%         427.02              4,408           49.4                       21,081.81
Oklahoma                         1.5%         427.28                383           12.0                        5,122.19
Oregon                           0.0%         413.44                651             0.0                              -
Pennsylvania                    28.9%         450.12              7,575          296.2      133,317.67      133,317.67
Rhode Island                     0.0%         471.49                242            0.0                               -
South Carolina                   9.0%         413.36              1,137           32.5                       13,441.72
South Dakota                    12.5%         407.14                299             8.1       3,286.84        3,286.84
Tennessee                        3.7%         424.54              1,399           29.1                       12,353.77
Texas                            0.0%         412.79              2,439             0.0                              -
Utah                             1.3%         394.75                356             5.1                       2,009.59
Vermont                          0.0%         468.35                176             0.0                              -
Virginia                         8.4%         409.10              3,702           46.3                       18,931.10
Washington                       2.6%         435.23              1,346           25.4                       11,071.99
West Virginia                    4.2%         428.03                723           27.3                       11,666.86
Wisconsin                        1.4%         416.09              1,913           39.4                       16,397.19
Wyoming                          3.4%         418.32                148             6.1                       2,569.32
         TOTALS                     --             --            96,449          4,029  $ 1,102,132.57  $ 1,783,901.53
                                                                                         X 12 months      X 12 months
                                                    Total Annual Funds at Risks       $13,225,590.84 $21,406,818.36
                                                    Adjusted for Appeals (less 28%)   $ 9,469,523.04 $15,327,281.95


                                                          B-1
                                                NOTES

1) The numbers in Column 1 were taken from the Social Security Administration’s (SSA)
   “Childhood Redetermination Reports - INFORMATION - SSI Welfare Reform Childhood
   Status Report for the Week Ending January 31, 1998,” in Table 6. They reflect the
   accuracy of the original decisions (performance accuracy). These numbers are used for
   informational purposes only and are not used in the table calculations.

2) The numbers in Column 2 were taken from “Children Receiving SSI – December 1997,”
   prepared by SSA’s Office of Research, Evaluation and Statistics, in Table 2.

3) The numbers in Column 3 were taken from SSA’s “Childhood Redetermination Reports -
   INFORMATION - SSI Welfare Reform Childhood Status Report for the Week Ending
   January 31, 1998,” in Table 1. Specifically, we used the initial redetermination
   continuances granted per State.

4) The numbers in Column 4, estimated number of persons incorrectly continued was
   calculated using decisional accuracy rates provided by the Office of Quality Assurance
   and Performance Assessment on July 23, 1998. Decisional accuracy rates for erroneous
   continuances were considered statistically reliable for only 31 of the States.1 For each
   State where the statistics were less than reliable, we compared the regional decisional
   accuracy rate to the State decisional accuracy rates and used the lesser rate, which
   produced the fewest number of persons incorrectly continued.

5) The numbers in this column were calculated by multiplying the estimated number of
   persons incorrectly continued by the average monthly Supplemental Security Income
   benefit per State. The three totals at the bottom of the column represent: (1) the total
   monthly funds at risk; (2) the total annual funds at risk (monthly funds at risk multiplied by
   12); and (3) the adjusted annual funds at risk assuming an appeals rate of 71 percent and
   an overturn rate of 40 percent. The lower funds at risk estimate pertains to only those
   States with a performance accuracy rate below the minimum of 90.6 percent established
   by SSA. The upper funds at risk estimate covers all States.




1
 States with statistically valid decisional accuracy information include Alabama, Arkansas, California,
Connecticut, Delaware, District of Columbia, Florida, Hawaii, Illinois, Indiana, Iowa, Kentucky, Maryland,
Massachusetts, Minnesota, Mississippi, Missouri, Montana, North Carolina, Ohio, Oregon, Rhode Island, South
Dakota, Tennessee, Texas, Utah, Vermont, Virginia, Washington, West Virginia, and Wisconsin.
                                                         B-2
                 APPENDIX C

SSA’s COMMENTS
                                                                      APPENDIX D


                  MAJOR CONTRIBUTORS

Office of the Inspector General

Roger Normand, Director, Northern Program Audit Division
Rona Rustigian, Deputy Director
Walter Bayer, Auditor-in-Charge
Joseph LoVecchio, Auditor



For additional copies of this report, please contact the Office of the Inspector
General’s Public Affairs Specialist at (410) 966-9135. Refer to Common
Identification Number A-01-98-62012.
                       APPENDIX E


SSA ORGANIZATIONAL CHART
